SUPREME COURT OF UNITED STATES
CERTIFICATE OF COMPLIANCE
No. 20-187
Okwudili Francis Chukwuani
Petitioner
v.
Solon School District
Respondent

As required by Supreme Court Rule 33.1(h), I certify that this petition for
rehearing contains 628 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

i

Executed on November iji, 2020.

Signed: Okwudili F. Chukwuani, MD
7309 Winchester Drive, Solon, OH 44139
Phone: 713-574-0043

NATHAN! LARKIN
Notary Public, State of Ohio
Z-k
- \mjgasgwi*! My Comm. Expires Aug, 122022
Recorded in Cuyahoga County

„wl0

received
NOV 1 8 2020

